2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

l-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www .cocklelegalbriefs.com

No. 21-303
VIGNARAJ MUNSAMI PILLAY,
Petitioner,
V.

PUBLIC STORAGE, INC.,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.l(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 13 70 words, excluding the parts that are exempted by Supreme Court Rule
33.l(d), as needed .

. Subscribed and sworn to before me this 29th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL IOTA.RY-State of Nebraska
RENEE J. GOSS
My COmm. Exp. September 5, 2023

Affiant

41497

